No. 20-_____

IN THE SUPREME COURT OF THE UNITED STATES
DERRICK IVAN JIM,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent

On Petition for Writ of Certiorari
to the United States Court of Appeals for the Tenth Circuit

CERTIFICATE OF SERVICE

I, Shira Kieval, an attorney appointed to represent the Petitioner under the Criminal Justice
Act of 1964, hereby certify pursuant to Sup. Ct. R. 29.5 that, on July 22, 2020, I served the Petition
for Writ of Certiorari and accompanying Motion for Leave to Proceed In Forma Pauperis on all
parties required to be served under Supr. R. 29.4(a).
I served the following by causing a copy of the documents to be enclosed in an envelope
and to be delivered to Federal Express for delivery within 3 calendar days:
Noel J. Francisco
Solicitor General of the United States
Room 5614, Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2000
//
//
//
//
//

In addition, I caused an electronic version of the documents to be transmitted via email to:
The Solicitor General’s Office: SupremeCtBriefs@usdoj.gov
/s Shira Kieval
Shira Kieval
Assistant Federal Public Defender
Counsel of Record for Petitioner

2

